                                  SENSITIVE BUT UNCLASSIFIED




                    UNITED STATES DEPARTMENT OF STATE
                AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-IT-13-39                                    Office of Audits                                   September 2013




                      Audit of
  International Boundary and Water Commission,
       United States and Mexico, U.S. Section,
           Information Security Program




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASS~IED
                                                   1
                                                                 mte<1 States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspector General




                                          (U) PREFACE
        (U) This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General ' s (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        (U) In accordance with the Federal Information Security Management Act of2002
(FISMA), OIG performed a review of the United States Section, International Boundary and
Water Commission Information Security Program for FY 2013. The report is based on
interviews with employees and officials of the United States Section, International Boundary and
Water Commission headquarters and field offices, direct observation, and a review of applicable
documents.

        (U) OIG identified areas in which improvements could be made, including the system
inventory, risk management program, configuration management, security awareness and role-
based training, plans of actions and milestones, remote access, continuous monitoring,
contingency planning, oversight of contractor systems, personnel security, and physical and
environmental protection.

        (U) The recommendations contained in the report were developed on the basis of the best
knowledge available and were discussed in draft form with those individuals responsible for
implementation. OIG ' s analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

         (U) I express my appreciation to all of the individuals who contributed to the preparation
of this report.




                                       Harold W. Geisel
                                       Acting Inspector General




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


______________________________________________________________
(U) Acronyms
(U) BCP      Business Continuity Plan
(U) BIA      Business Impact Analysis
(U) COOP     Continuity of Operations Plan
(U) COR      contracting officer’s representative
(U) DRP      Disaster Recovery Plan
(U) FISMA    Federal Information Security Management Act
(U) GIS      Geographic Information System
(U) GSS      General Support System
(U) IBWC     International Boundary and Water Commission
(U) ICS      Industrial Control System
(U) IMD      Information Management Division
(U) IT       information technology
(U) ISSM     Information System Security Manager
(U) NIST     National Institute of Standards and Technology
(U) OIG      Office of Inspector General
(U) OMB      Office of Management and Budget
(U) PIN      Personal Identification Number
(U) PIV      Personal Identity Verification
(U) POA&M    Plan of Action and Milestones
(U) SBIWTP   South Bay International Wastewater Treatment Plant
(U) SCADA    Supervisory Control and Data Acquisition
(U) SP       Special Publication
(U) VPN      Virtual Private Network




                          SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


                                                     (U) Table of Contents

(U) Section                                                                                                                        (U) Page

(U) Executive Summary ................................................................................................................. 1

(U) Background .............................................................................................................................. 2

(U) Objective .................................................................................................................................. 4

(U) Audit Results ............................................................................................................................ 4
    (U) Finding A. Risk Management ............................................................................................. 4
    (U) Finding B. Continuous Monitoring ..................................................................................... 6
    (U) Finding C. Physical and Environmental Protection ............................................................ 8
    (U) Finding D. Plan of Action and Milestones ........................................................................ 11
    (U) Finding E. Security Capital Planning ................................................................................ 12
    (U) Finding F. Contingency Planning ...................................................................................... 14
    (U) Finding G. Incident Response and Reporting ................................................................... 15
    (U) Finding H. Configuration Management ............................................................................ 16
    (U) Finding I. Security Training .............................................................................................. 17
    (U) Finding J. Remote Access Management ........................................................................... 18
    (U) Finding K. Identity and Access Management ................................................................... 20
    (U) Finding L. Contractor Systems .......................................................................................... 21
    (U) Finding M. Personnel Security .......................................................................................... 24
    (U) Finding N. System Inventory ............................................................................................ 27

(U) List of Recommendations....................................................................................................... 29
(U) Appendices
    (U) A. Scope and Methodology ............................................................................................... 33
     (U) B. Office of Inspector General FY 2012 Federal Information Security
            Management Act Report Statuses of Recommendations ............................................ 35
    (U) C. International Boundary and Water Commission Management Responses……………42

(U) Major Contributors to This Report ......................................................................................... 49



                                            SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED



                                          (U) Executive Summary
        (U) In accordance with the Federal Information Security Management Act of 2002 1
(FISMA), the Department of State (Department), Office of Inspector General (OIG), conducted
an audit of the U.S. Section, International Boundary and Water Commission (IBWC),
information security program and practices. The purpose of the audit was to determine
compliance with Federal laws, regulations, and standards established by FISMA, the Office of
Management and Budget (OMB), and the National Institute of Standards and Technology
(NIST). In addition, OIG reviewed IBWC’s corrective actions to address weaknesses identified
in OIG’s FY 2012 report Audit of International Boundary and Water Commission, United States
and Mexico, U.S. Section, Information Security Program (AUD/IT-13-15, November 2012).
OIG closed four of 31 recommendations in the FY 2012 report, and IBWC had taken some
action on the remaining 27 recommendations. The status of each recommendation from OIG’s
FY 2012 report is presented in Appendix B.

        (SBU) During FY 2013, OIG conducted fieldwork at IBWC’s U.S. Section headquarters
in El Paso, TX; South Bay International Wastewater Treatment Plant (SBIWTP) and field office
in San Diego, CA, and Nogales, AZ; and the continuity of operations site in Las Cruces, NM.
Overall, OIG found that IBWC had implemented an information security program and had made
some progress on previously identified weaknesses. However, OIG identified security control
weaknesses that, if exploited, could expose IBWC to security breaches. Specifically, the
weakened security controls could adversely affect the confidentiality, integrity, and availability
of IBWC information and information systems. OIG provided IBWC with 27 recommendations
related to 14 security control weaknesses and identified the following six significant security
deficiencies requiring immediate attention:

           •   (SBU) IBWC had not developed and implemented a risk management framework for
               its information systems. (Finding A)
           •   (SBU) IBWC had not implemented a continuous monitoring program for its
               information systems. (Finding B)
           •   (SBU) IBWC had not developed a comprehensive policy and procedure for
               implementing physical and environmental protection controls for IBWC assets.
               (Finding C)
           •   (SBU) IBWC had not implemented an effective Plan of Action and Milestones
               (POA&M) process. (Finding D)
           •   (SBU) IBWC did not have an effective capital planning process for its information
               systems. (Finding E)
           •   (SBU) IBWC had not addressed many of the critical information system components
               for contingency planning. (Finding F)



1
    (U) E-Government Act of 2002, Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).

                                                  1
                                     SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

       (U) In its September 16, 2013, response (see Appendix C) to the draft report, IBWC
agreed to 27 recommendations. Based on the response, OIG considers Recommendation 9
closed and the remaining 26 recommendations resolved, pending further action. IBWC’s
responses and OIG’s replies to those responses are included after each recommendation.

                                                (U) Background
       (U) IBWC is an international organization established in 1889 by the U.S. and Mexican
Governments to apply boundary and water treaties and agreements between the United States
and Mexico. IBWC consists of a U.S. Section and a Mexican Section. Each section is
independent and headed by an Engineer Commissioner. The U.S. and Mexican Sections
maintain their respective headquarters in the adjoining cities of El Paso and Ciudad Juárez,
Chihuahua. Although IBWC is an independent international entity, the U.S. Section takes direction
from the Department on matters related to foreign policy. The joint mission of the U.S. Section
and the Mexican Section is as follows:

           •   (U) Distribute the waters of the boundary-rivers between the two countries.
           •   (U) Operate international flood control along the boundary-rivers.
           •   (U) Operate the international reservoirs for conservation and regulation of Rio
               Grande waters for the two countries.
           •   (U) Improve the quality of water of international rivers.
           •   (U) Resolve border sanitation issues.
           •   (U) Develop hydroelectric power.
           •   (U) Establish the boundary in the area bordering the Rio Grande.
           •   (U) Demarcate the land boundary.

        (U) IBWC’s strategic objective is to improve and sustain the quality of effluent in
accordance with applicable laws and international agreements. The U.S. Section owns the
contractor-operated SBIWTP, which is responsible for meeting the Clean Water Act
requirements mandated by the State of California. The SBIWTP discharges the clean water into
the Pacific Ocean. The U.S. Section also maintains and operates the Nogales International
Wastewater Treatment Plant in accordance with the Clean Water Act discharge standards
mandated by Arizona. Each wastewater treatment plant has a Supervisory Control and Data
Acquisition (SCADA) 2 system. A SCADA control center performs centralized monitoring and
control for field sites over long-distance communications networks, including monitoring alarms
and processing status data. Based on information received from remote stations, automated or
operator-driven supervisory commands are controlled by remote station control devices, which
are often referred to as field devices. Field devices control local operations such as opening and
closing valves and breakers, collecting data from sensor systems, and monitoring the local
environment for alarm conditions. A sample SCADA screen is shown in Figure 1.




2
    (U) A SCADA is also referred to as an Industrial Control System (ICS).
                                                  2
                                     SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




    (U) Figure 1. A SCADA display at the SBIWTP. (OIG photograph)

       (U) The U.S. Section is in the process of developing and implementing the necessary
information technology (IT) measures to meet requirements mandated by FISMA and NIST.
The agency is also in the process of acquiring and installing required software and hardware,
modifying IT system configurations, and implementing policies to achieve system certification
and accreditation with FISMA requirements.

       (U) FISMA was enacted into law as Title III, Public Law Number 107-347, on December
17, 2002. Key requirements of FISMA are as follows:

        •   (U) The establishment of an agency-wide information security program to provide
            information security for the information and information systems that support the
            operations and assets of the agency, including those provided or managed by another
            agency, contractor, or other source.
        •   (U) An annual independent evaluation of the agency’s information security programs
            and practices.
        •   (U) An assessment of compliance with FISMA requirements.

        (U) FISMA assigns specific responsibilities to Federal agencies, NIST, OMB, and the
Department of Homeland Security 3 to strengthen information system security. In particular,
FISMA requires the head of each agency to implement policies and procedures to cost
effectively reduce IT security risks to an acceptable level. To ensure the adequacy and
effectiveness of information system controls, FISMA requires agency program officials, chief
information officers, chief information security officers, senior agency officials for privacy, and


3
 (U) OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office
of the President and the Department of Homeland Security (DHS), July 6, 2010.
                                              3
                                 SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

inspectors general to conduct annual reviews of the agency’s information security program and
report the results to the Department of Homeland Security.

                                              (U) Objective
        (U) The objective of the audit was to assess the effectiveness of IBWC’s information
security program in FY 2013.

                                           (U) Audit Results
        (U) OIG observed that IBWC had made improvements to its security program. However,
OIG identified the following control weaknesses that, if not addressed, could be detrimental to
IBWC’s information systems and organization. To improve the information security program
and to bring the program into compliance with FISMA, OMB, and NIST requirements, OIG
determined that IBWC should address the 14 control weaknesses described herein.

(U) Finding A. Risk Management
        (SBU) In FY 2011 4 and FY 2012, OIG reported that IBWC had not developed an
effective risk management program. Information Management Division’s (IMD) Inventory
Guide listed four information systems and one major application: two SCADA systems; 5
General Support System (GSS) and its major application, Geographic Information System
(GIS); 6 and its SBIWTP Admin Network, which required identification and management of
risks. NIST Special Publication (SP) 800-37, Revision 1, 7 states the following:

        (U) Managing information system-related security risks is a complex,
        multifaceted undertaking that requires the involvement of the entire organization
        from senior leaders providing the strategic vision and top-level goals and
        objectives for the organization, to mid-level leaders planning and managing
        projects, to individuals on the front lines developing, implementing, and operating
        the systems supporting the organization’s core missions and business processes.

        (SBU) IBWC had not developed a comprehensive governance structure and
organization-wide risk management framework to include an information system perspective.
NIST SP 800-37, Revision 1, 8 describes a “three-tiered risk management framework” in which
tier one addresses risk from an organization perspective, tier two addresses risk from a mission
and business process perspective, and tier three addresses risk from an information system


4
  (U) Evaluation of the United States Section, International Boundary and Water Commission, Information Security
Program (AUD/IT-12-16, Nov. 2011).
5
  (U) The two SCADA systems are located in Nogales and San Diego.
6
  (U) GSS and GIS are located in El Paso.
7
  (U) NIST SP 800-37, rev.1, Guide for Applying the Risk Management Framework to Federal Information Systems,
“Integrated Organization-Wide Risk Management,” Feb. 2010.
8
  (U) Ibid.
                                               4
                                  SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

perspective. NIST SP 800-39 9 lists “risk framing, risk assessment, risk response, and risk
monitoring” as the four steps for assessing risk of information systems. A comprehensive
governance structure and organization-wide risk management framework to include an
information system perspective did not exist because IBWC could not identify risk management
guidance to complete its draft risk management framework.

        (SBU) IBWC did not have Security Authorization Packages to include risk assessments,
security plans, privacy impact assessments, and management authorizations to operate for GSS,
two SCADA systems, and the SBIWTP Admin Network. In addition, IBWC’s GIS did not have
an application security plan. NIST SP 800-53, Revision 3, 10 requires that an organization
develop, distribute, and update formal security assessments and authorization policies. Security
Authorization Packages had not been completed because IBWC did not have sufficient resources
to complete the necessary security documents for all IBWC information systems.

        (SBU) IBWC’s GIS had an improper application classification and impact level. IBWC's
IMD Inventory Guide quotes Federal Information Processing Standards 199 and states that “a
major application is expected to have an impact level of moderate or high.” IBWC’s IMD
Inventory Guide listed its GIS with a low confidentiality, integrity, and availability impact level
resulting in a low impact system. GIS received a low impact level and the classification of a
major application because IMD planned to include GIS in the same accreditation boundary as
GSS and assumed GIS had to be classified as a major application.

        (SBU) IBWC had identified the SBIWTP Admin Network as its own information system
without performing ongoing security control assessments to ensure information security
requirements were in place. NIST SP 800-53, Revision 3, 11 states that organizations should
“establish a continuous monitoring strategy and implement a continuous monitoring program
that includes ongoing security control assessments.” IBWC had not performed ongoing security
controls assessments of the SBIWTP because it did not have access to the system and relied on
the contractor to perform them. Without a risk management program, IBWC cannot prioritize,
assess, respond to, and monitor information security risk, leaving IBWC vulnerable to outside
attacks and insider threats.

        (SBU) Recommendation 1. OIG recommends that the International Boundary and
        Water Commission update and finalize its risk management framework to include all
        three tiers of managing risk, as required by National Institute of Standards and
        Technology (NIST) Special Publications (SP) 800-37, Revision 1, and the four risk
        management steps, as required by NIST SP 800-39.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that it
        was in the process of finalizing a risk management framework.


9
  (U) NIST SP 800-39, Managing Information System Risk, app. E, Mar. 2011.
10
   (U) NIST SP 800-53, rev. 3, Recommended Security Controls for Federal Information Systems, “CA-1 Security
Assessment and Authorization Policies and Procedures,” Aug. 2009 (last updated May 2010).
11
   (U) NIST SP 800-53, rev. 3, “CA-7 Continuous Monitoring.”
                                              5
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        IBWC has finalized its risk management framework to include all three tiers of managing
        risk.

        (SBU) Recommendation 2. OIG recommends that the International Boundary and
        Water Commission (IBWC) determine the ownership and classification of the South Bay
        International Wastewater Treatment Plant Admin Network and the Geographic
        Information System in accordance with Federal Information Processing Standards 199
        and update the IBWC Inventory Guide.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that it
        is discussing ownership of the system with Veolia. IBWC further stated that it will
        reclassify the SBIWTP Veolia and the GIS in accordance with FIP 199 by the end of
        2013.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        the ownership and classification of the SBIWTP Admin Network and the GIS have been
        determined.

        (SBU) Recommendation 3. OIG recommends that the International Boundary and
        Water Commission (IBWC) develop security authorization packages for all IBWC
        information systems based on the determination of ownership and classification, as
        required by National Institute of Standards and Technology Special Publication 800-53,
        Revision 3.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that the
        results and reclassification of the systems will be used to develop the authorization
        packages for all IBWC systems once the risk assessment for the GIS has been completed.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        authorization packages were developed for all IBWC information systems based on
        determined ownership and classification.

(U) Finding B. Continuous Monitoring
        (SBU) In FY 2011 and FY 2012, OIG reported that the IBWC did not have effective
continuous monitoring management of its information systems. In FY 2013, OIG found that
IBWC had not established a continuous monitoring program to include information system
activity log reviews and ongoing assessments of its SCADA systems. NIST SP 800-137 12 states,

12
 (U) NIST SP 800-137, Information Security Continuous Monitoring for Federal Information Systems and
Organizations, “Executive Summary,” Sept. 2011.
                                             6
                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

“Information security continuous monitoring is maintaining ongoing awareness of information
security, vulnerabilities, and threats to support organizational risk management decisions.”

       (SBU) Although IBWC had procured and utilized some automated tools to perform
system scans of its GSS, IBWC had not established a continuous monitoring program for all four
information systems and its major application. NIST SP 800-53, Revision 3, 13 states that
organizations should “establish a continuous monitoring strategy and implement a continuous
monitoring program that includes ongoing security control assessments.” According to the
Information System Security Manager (ISSM), IBWC did not have a continuous monitoring
program because it did not have all the tools in place to create a continuous monitoring strategy.

        (SBU) IBWC also did not perform ongoing vulnerability assessments of its SCADA
systems. NIST SP 800-53, Revision 3, 14 states that organizations should “establish a continuous
monitoring strategy and implement a continuous monitoring program that includes ongoing
security control assessments.” In addition, [Redacted] (b) (5)
                                                                          . NIST SP 800-53,
Revision 3, states that an organization “reviews and analyzes information system audit records
for indications of inappropriate or unusual activity.” According to IBWC officials, [Redacted]
                                                                                    (b) (5)



        (SBU) Without an established continuous monitoring strategy and implemented program
to perform ongoing security control assessments, there is an increased risk that timely
identification and mitigation of threats and vulnerabilities could remain undetected leading to
potential damage or disruption of IBWC information systems.

        (SBU) Recommendation 4. OIG recommends that the Information Management
        Division establish a continuous monitoring strategy and implement a continuous
        monitoring program for all International Boundary and Water Commission information
        systems, as required by National Institute of Standards and Technology (NIST) Special
        Publication (SP) 800-53, Revision 3, and as outlined in NIST SP 800-137.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that it
        had implemented a continuous monitoring solution to perform vulnerability scanning and
        advanced risk assessment threats. IBWC further stated that it was in the process of hiring
        personnel and issuing a contract for continuous monitoring services.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        IMD has established a continuous monitoring strategy and implemented a continuous
        monitoring program for all IBWC information systems.


13
   (U) NIST SP 800-53, rev. 3, “CA-7 Continuous Monitoring.”
14
   (U) Ibid.
15
   (U) NIST SP 800-53, rev. 3, “AU-6 Audit Monitoring, Analysis, and Reporting.”
                                              7
                                 SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


         (U) Finding C. Physical and Environmental Protection
                 (SBU) In FY 2011 and FY 2012, OIG reported that IBWC management had not
         developed and implemented effective physical and environmental protection controls for IBWC
         assets to include information systems. In FY 2013, OIG found that IBWC had made physical
         protection improvements at the SBIWTP by installing new locks to the SCADA rooms to
         prevent unauthorized access. Although IBWC had made improvements to physical protection,
         OIG observed other security deficiencies.

                  (SBU) IBWC had not developed a comprehensive policy and procedure for implementing
         physical and environmental protection controls for IBWC assets. NIST SP 800-53, Revision 3, 16
         states that an organization should develop formal, documented physical and environmental
         protection policies and procedures to implement physical and environmental controls.

                (SBU) SBIWTP had five gates: Gates 1, 2, and 5 provided access to the facility, and
         Gates 3 and 4 provided access between the United States and Mexico. [Redacted] (b)
        [Redacted] (b) (5), [Redacted] (b) (7)(F)                                          (5), [Redacted]
                                                                                           (b) (7)(F)




[Redacted] (b) (5), [Redacted] (b) (7)(F)




         16
            (U) NIST SP 800-53, rev. 3, “PE-1 Physical and Environmental Protection Policy and Procedures.”
    [Reda [Redacted] (b) (5)
    cted]                                                        8
    (b)                                    SENSITIVE BUT UNCLASSIFIED
    (5),
    [Reda
    cted]
    (b) (7)
    (F)
                                    SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5), [Redacted] (b) (7)(F)




        (SBU) IBWC had not maintained visitor access logs for areas where the information
systems reside in El Paso, Las Cruces, San Diego, and Nogales. NIST SP 800-53, Revision 3, 18
states an organization should maintain and review “visitor access records to the facility where the
information system resides.” In addition, SBIWTP access cards and remote controls lacked
chain of custody and could not provide accountability for personnel who accessed the facility.
OIG requested documentation demonstrating chain of custody for access cards and remote
controls, but no documentation was provided. In addition, OIG asked the SBIWTP Plant
Superintendent to determine whether personnel accountability existed for access devices, and the
Superintendent stated that IBWC [Redacted] (b) (5), [Redacted] (b) (7)(F)
The Superintendent further stated that SBIWTP plans on ordering new access devices [Re
[Redacted] (b) (5), [Redacted] (b) (7)(F)    NIST SP 800-53, Revision 3, 19 states thatdacan
                                                                                        ted]
organization should inventory physical access devices.                                  (b)
                                                                                       (5),
18
                                                                                       [Re
     (U) NIST SP 800-53, rev. 3, “PE-8 Access Records.”                                dac
19
     (U) NIST SP 800-53, rev. 3, “PE-3 Physical Access Control.”                       ted]
                                                 9                                     (b)
                                    SENSITIVE BUT UNCLASSIFIED                         (7)
                                                                                       (F)
                                        SENSITIVE BUT UNCLASSIFIED

              (SBU) OIG observed security weaknesses present in IBWC’s server rooms. 20
[Redacted] (b) (5), [Redacted] (b) (7)(F)




             (SBU) These conditions existed because IBWC management had focused resources on
     maintaining mission critical operations and had not prioritized the development of a
     comprehensive policy and procedure to establish and implement physical and environmental
     protection controls for IBWC assets. Without physical and environmental protection controls,
     IBWC assets are not receiving the organized attention required to prevent unauthorized access or
     destruction, which could affect IBWC operations and result in an environmental incident.

              (SBU) Recommendation 5. OIG recommends that the International Boundary and
              Water Commission (IBWC) develop and implement policies and procedures for physical
              and environmental protection controls for IBWC assets to include information systems at
              headquarters and at each field office, in accordance with National Institute of Standards
              and Technology (NIST) Special Publication (SP) 800-53, Revision 3, and NIST SP 800-
              82.

              (SBU) Management Response: IBWC agreed with the recommendation, stating that it
              had developed and implemented a risk assessment policy and procedures to incorporate
              required physical and environmental protection controls for IBWC assets, including all
              information systems.

              (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
              can be closed when OIG reviews and accepts documentation or evidence showing that
              the IBWC has developed and implemented policies and procedures for physical and
              environmental protection controls for IBWC assets to include all of its information
              systems.

              (SBU) Recommendation 6. OIG recommends that the International Boundary and
              Water Commission develop and implement [Redacted] (b) (5)
                                                            as required by National Institute of
              Standards and Technology Special Publication 800-53, Revision 3.




     20
        (U) OIG visited all seven server rooms at the following locations: one in El Paso, one in Nogales, four in San
     Diego, and one in Las Cruces.
     21
        (U) NIST SP 800-53, rev. 3, “PE-13 Fire Protection.”
     22
        (U) NIST SP 800-53, rev. 3, “PE-3 Physical Access Control.”
                                                    10
                                        SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED

        (SBU) Management Response: IBWC agreed with the recommendation, stating that it
        had established policies and procedures to control access to proximity cards and remote
        entrance devices.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        IBWC has established policies and procedures to control access to proximity cards and
        remote entrance devices.

(U) Finding D. Plan of Action and Milestones
        (SBU) In FY 2011 and FY 2012, OIG reported that IBWC did not have an effective
POA&M process. In FY 2013, OIG found that POA&M entries were not fully completed. In
addition, POA&Ms were included in IBWC’s database for vulnerabilities that did not actually
exist for its information systems. Finally, [Redacted] (b) (5)
                                               NIST SP 800-64 states, “The purpose of the
POA&M is to assist agencies in identifying, assessing, prioritizing, and monitoring the progress
of corrective efforts for security weaknesses found in programs and systems.”

        (SBU) IBWC had incomplete POA&Ms in its database. [Redacted] (b) (5)

IBWC’s POA&M Directive states, “Actual dollars or staff hours needed to correct a weakness
must be identified as part of the initial corrective action plan in the ‘Resources’ and ‘Man Hours’
fields of the POA&M.” The directive also states, “Each control/weakness must have at least one
corresponding milestone with an anticipated completion date.” POA&M entries were deficient
of necessary elements because of an oversight by the ISSM.

       (SBU) The ISSM erroneously entered 174 POA&Ms in IBWC’s POA&M database.
NIST SP 800-53, Revision 3, 24 states that an organization should develop POA&Ms “for the
information system to document the organization’s planned remedial actions to correct
weaknesses or deficiencies noted during the assessment of the security controls and to reduce or
eliminate known vulnerabilities in the system.” According to the ISSM, 174 POA&Ms were
recorded in the POA&M database based on information presented in a training class that he had
attended; however, the 174 POA&Ms that he entered were not from supported security
assessments.

        (SBU) [Redacted] (b) (5)
                                                      NIST SP 800-53, Revision 3, states that an
                       [Redacted] (b) (5)
organization should                         POA&Ms [Redacted] (b) (5)




23
   (U) NIST SP 800-64, Security Considerations in the System Development Life Cycle, Oct. 2008.
24
   (U) NIST SP 800-53, “CA-5 Plan of Action and Milestones.”
25
   (U) Ibid.
                                                        11
                                            SENSITIVE BUT UNCLASSIFIED
                                          SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5)




                (SBU) Recommendation 7. OIG recommends that the Information Management
                Division update and implement its Plan of Action and Milestone Directive to include all
                information systems, as required by National Institute of Standards and Technology
                Special Publication 800-53, Revision 3.

                (SBU) Management Response: IBWC agreed with the recommendation, stating that it
                had begun updating the POA&M database.

                (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
                can be closed when OIG reviews and accepts documentation or evidence showing that
                IBWC has updated its POA&M database.

                (SBU) Recommendation 8. OIG recommends that the Information Management
                Division update the Plan of Action and Milestone database [Redacted] (b) (5)

                                               as stated in the International Boundary and Water
                Commission Plan of Action and Milestone Directive for all information systems.

                (SBU) Management Response: IBWC agreed with the recommendation, stating that it
                had begun updating the POA&M database.

                (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
                can be closed when OIG reviews and accepts documentation or evidence showing that
                IBWC has updated its POA&M database.

        (U) Finding E. Security Capital Planning
                (SBU) In FY 2011 and FY 2012, OIG reported that IBWC did not have an effective
        capital planning process to include the completion of a business case/Exhibit 300/Exhibit 53.
        NIST SP 800-65 26 states the following:

        26
          (U) NIST SP 800-65, Integrating IT Security into the Capital Planning and Investment Control Process,
        “Executive Summary,” Jan. 2005.
                                                      12
                                          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        (U) [FISMA] requires agencies to integrate IT security into their capital planning
        and enterprise architecture processes, conduct annual IT security reviews of all
        programs and systems, and report the results of those reviews to the OMB.
        Therefore, the implementation of FISMA legislation effectively integrates IT
        security and capital planning because agencies must document resource and
        funding plans for IT security. Furthermore, implementation of FISMA legislation
        is intended to ensure that agency resources are protected and risk is effectively
        managed. The legislation requires that agencies incorporate IT security into the
        life cycle of their information systems.

         (SBU) In FY 2013, OIG found that IBWC did not have an effective capital planning
process for its information systems. Specifically, IBWC did not complete a business
case/Exhibit 300/Exhibit 53. NIST SP 800-53, Revision 3, 27 states that organizations should
“determine, document, and allocate the resources required to protect their information systems as
part of its capital planning and investment control process.” NIST SP 800-53, Revision 3, 28 also
states that an “organization employs a business case/Exhibit 300/Exhibit 53 to record the
resources required.”

        (SBU) According to the IBWC Chief Administrative Officer, IBWC had not completed
security capital planning because they were not required to complete security capital planning
based on interpretation of OMB Circular A-11. 29 OMB Circular A-11 lists the legislative and
judicial branches and specific executive branch agencies, along with certain Government-
sponsored enterprises, as being exempt from submitting capital planning documentation.
However, OMB Circular A-11 does not identify IBWC as exempt. In addition, IBWC had not
completed security capital planning because the resource requirement for all POA&Ms, which
helps calculate budgetary needs for its information system components, did not always exist.
Finally, IBWC could not determine its information system inventory to quantify security capital
funding needs. Without an effective security capital planning process, IBWC management will
be unable to prioritize and remediate security weaknesses and vulnerabilities and perform
equipment upgrades to support business operations.

        (U) Recommendation 9. OIG recommends that the International Boundary and Water
        Commission complete a business case/Exhibit 300/Exhibit 53 to obtain the resources
        required to protect its information systems, as required by National Institute of Standards
        and Technology Special Publication 800-65.

        (U) Management Response: IBWC agreed with the recommendation, stating that all of
        its IT assets have been inventoried and that it will continue to maintain the inventories
        along with associated costs.




27
   (U) NIST SP 800-53, rev. 3, “SA-2 Allocation of Resources.”
28
   (U) NIST SP 800-53, rev. 3, “PM-3 Information Security Resources.”
29
   (U) OMB Circular A-11 Part 2, Preparation and Submission of Budget Estimates, Aug. 2012.
                                             13
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        (U) OIG Analysis: OIG considers the recommendation closed. Subsequent to audit
        fieldwork, IBWC provided documentation showing that OMB had confirmed that the
        requirement to complete a business case was not applicable to smaller agencies.

(U) Finding F. Contingency Planning
        (SBU) In FY 2011 and FY 2012, OIG reported that IBWC did not have an effective
contingency planning program. In FY 2013, OIG found that IBWC did not have a Business
Impact Analysis (BIA), Business Continuity Plan (BCP), Disaster Recovery Plan (DRP), and a
Continuity of Operations Plan (COOP). A BIA identifies and prioritizes information systems
and components critical to supporting the organization’s mission. A BCP provides procedures
for sustaining business operations while recovering from a significant disruption. A DRP
provides procedures for relocating information system operations to an alternate location. A
COOP provides procedures to sustain an organization’s mission-essential functions at an
alternate site for up to 30 days. NIST SP 800-34, Revision 1, 30 states that “contingency planning
refers to interim measures to recover information system services after a disruption. Interim
measures may include relocation of information systems and operations to an alternate site,
recovery of information system functions using alternate equipment, or performance of
information system functions using manual methods.”

         (SBU) Although IBWC had developed the capability to virtually access a server at its
alternate processing site in Las Cruces in FY 2013, it had not addressed many of the critical
contingency planning components. Specifically, IBWC had not conducted a BIA, BCP, DRP,
and a COOP. NIST SP 800-34, Revision 1, 31 states that an organization should “develop a
contingency planning policy statement, conduct a business impact analysis, identify preventive
controls, create contingency strategies, develop an information system contingency plan, ensure
plan testing, training, exercises, and ensure plan maintenance.” NIST SP 800-53, Revision 3, 32
defines the requirements of an organization to develop and maintain planning policies,
procedures, and contingency plans. IBWC’s IMD chose to focus on daily operations instead of
devoting resources to developing contingency planning documents for its information systems.
Without an effective contingency planning program, IBWC is at risk of not being able to access
critical information and maintain business functions during an extended outage or disaster.

        (SBU) Recommendation 10. OIG recommends that the International Boundary and
        Water Commission prioritize resources to complete contingency planning documents for
        all information systems, as required by National Institute of Standards and Technology
        (NIST) Special Publication (SP) 800-53, Revision 3, and NIST SP 800-34, Revision 1.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that it
        had begun its BIA for the GSS, which will support its BCP and COOP documentation.


30
   (U) NIST SP 800-34, rev. 1, Contingency Planning Guide for Federal Information Systems, “Executive
Summary,” May 2010.
31
   (U) Ibid.
32
   (U) NIST SP 800-53, rev. 3, “CP-1 Contingency Planning Policy and Procedures” and “CP-2 Contingency Plan.”
                                             14
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        IBWC has completed contingency planning documents for all information systems.

(U) Finding G. Incident Response and Reporting
       (SBU) OIG first reported in FY 2012 that the IBWC did not have effective incident
response and reporting. In FY 2013, OIG found that IBWC management had not approved and
implemented its Incident Response Policy, correlated incidents for its GSS, and performed
incident response for its SCADA systems. According to NIST SP 800-61, Revision 2, 33
“incident response capability is necessary for rapidly detecting incidents, minimizing loss and
destruction, mitigating the exploited weaknesses, and restoring (IT) services.”

         (SBU) IBWC had a draft Incident Response Policy. NIST SP 800-53, Revision 3, 34
states that an organization, “develop an incident response plan that is reviewed and approved by
designated officials within the organization.” IBWC’s Incident Response Policy remained in
draft because IBWC management had not prioritized review and approval of its policy to ensure
the inclusion of all IBWC information systems.

       (SBU) Incident Response for computer security incidents did not exist for the IBWC’s
SCADA systems. NIST SP 800-53, Revision 3, 35 requires an organization to “implement an
incident handling capability for security incidents that includes preparation, detection and
analysis, containment, eradication, and recovery.” Incident response had not occurred for the
SCADA systems because IBWC did not have the resources and expertise.

        (SBU) IBWC did not correlate incidents identified through vulnerability scans with its
incident response and reporting for its GSS. NIST SP 800-53, Revision 3,36 requires that an
organization correlate incident information and individual incident responses to achieve an
organization-wide perspective on incident awareness and response. IBWC did not correlate
incidents for its GSS because the Information System Security Officer had not enabled and tested
the correlation capability of its vulnerability scanning software.

       (SBU) Without effective incident response and reporting, IBWC does not have the
necessary capability for rapidly detecting incidents, minimizing loss and destruction, mitigating
exploited weaknesses, and restoring IT services for its information systems.

        (SBU) Recommendation 11. OIG recommends that the International Boundary and
        Water Commission update, approve, and implement an incident response and reporting
        policy, to include the correlation of incidents for all information systems, as required by


33
   (U) NIST SP 800-61, rev. 2, Computer Security Incident Handling Guide, “Executive Summary,” Aug. 2012.
34
   (U) NIST SP 800-53, rev. 3, “IR-8 Incident Response Plan.”
35
   (U) NIST SP 800-53, rev. 3, “IR-4 Incident Handling.”
36
   (U) Ibid.
                                             15
                                 SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED

                 National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
                 Revision 3, and NIST SP 800-61, Revision 2.

                 (SBU) Management Response: IBWC agreed with the recommendation, stating that its
                 Incident and Response Reporting directive is finalized and currently under review by the
                 union.

                 (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
                 can be closed when OIG reviews and accepts documentation or evidence showing that
                 the IBWC has established, approved, and implemented an Incident and Response
                 Reporting Directive that includes the correlation of incidents for all information systems.

        (U) Finding H. Configuration Management
                 (SBU) In FY 2011 and FY 2012, OIG reported that IBWC did not have an effective
        configuration management process. In FY 2013, OIG found that IBWC applied untested
        changes to a critical information system and excluded change management for another critical
        information system. NIST SP 800-128 37 defines Configuration Management as “a collection of
        activities focused on establishing and maintaining the integrity of products and systems, through
        control of the processes for initializing, changing, and monitoring the configurations of those
        products and systems.”
[Redacted] (b) (5)




                (SBU) IBWC did not perform change management for its SCADA systems. NIST SP
        800-82 38 states that the “change management process, when applied to the Industrial Control
        System (ICS), requires careful assessment by ICS experts working in conjunction with security
        and information technology personnel.” NIST SP 800-82 39 also states, “A formal change
        management program should be established and procedures used to insure that all modifications
        to an ICS network meet the same security requirements as the original components identified in
        the asset evaluation and the associated risk assessment and mitigation plans.” Change
        management did not occur for the SCADA systems because IBWC did not have the resources
        and expertise to perform change management of the SCADA systems. Without implementing
        changes to its information systems, IBWC leaves its systems vulnerable to a denial of service
        and the potential introduction of security weaknesses.



        37
           (U) NIST SP 800-128, Guide for Security-Focused Configuration Management of Information Systems, sec. 2.1.1,
        Aug. 2011.
        38
           (U) NIST SP 800-82, sec. 3.1, “Change Management.”
        39
           (U) NIST SP 800-82, sec. 6.2.4, “ICS Specific Recommendations and Guidance.”
                                                     16
                                         SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

         (SBU) Recommendation 12. OIG recommends that the International Boundary and
         Water Commission (IBWC) implement testing of all changes to its information systems,
         as required by the IBWC Configuration Management Directive and National Institute of
         Standards and Technology Special Publication 800-53, Revision 3.

         (SBU) Management Response: IBWC agreed with the recommendation, stating that it
         had acquired resources and hardware to implement a virtual testing environment for all
         changes to its information systems.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that all
        changes made to the IBWC information systems are tested prior to installation.

         (SBU) Recommendation 13. OIG recommends that the International Boundary and
         Water Commission update and implement its configuration management policy to
         include change management of Supervisory Control and Data Acquisition systems as
         required by National Institute of Standards and Technology Special Publication 800-82.

         (SBU) Management Response: IBWC agreed with the recommendation, stating that a
         contract is being issued to conduct risk assessments of its SCADA systems, which
         includes development of configuration management policy.

         (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
         can be closed when OIG reviews and accepts documentation or evidence showing that
         IBWC has developed a configuration management policy for its SCADA systems.

(U) Finding I. Security Training
        (SBU) In FY 2011 and FY 2012, OIG reported that IBWC did not have an effective
security training program. In FY 2013, OIG found that IBWC employees were not required to
take initial security training before gaining access to IBWC information systems. NIST SP
800-16 40 states, “Federal agencies and organizations cannot protect the integrity, confidentiality,
and availability of information in today’s highly networked systems environment without
ensuring that each person involved understands their roles and responsibilities and is adequately
trained to perform them.”

        (SBU) OIG observed that all IBWC employees and contractors had completed their
security awareness training for 2012. 41 However, employees were able to gain access to IBWC
systems without taking initial security training. NIST SP 800-53, Revision 3, 42 states that the
“organization provide basic security awareness training to all information system users
(including managers, senior executives, and contractors) as part of initial training for new users.”

40
   (U) NIST 800-16, Information Technology Security Training Requirements, sec. 1.1, Apr. 1998.
41
   (U) IBWC conducts security awareness training on a calendar year basis instead of a fiscal year basis.
42
   (U) NIST SP 800-53, rev. 3, “AT-2 Security Awareness.”
                                               17
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

NIST SP 800-53, Revision 3, 43 also states that the “organization provides role-based security-
related training before authorizing access to the system.” Employees gained access to IBWC
information systems without initial security training because IMD granted network access to new
employees without requiring employees to complete and provide documentation that initial
security awareness training had occurred. Without proper IT security training, personnel may be
unaware of risks that may compromise the confidentiality, integrity, and availability of the data
residing on IBWC’s information systems.

        (SBU) Recommendation 14. OIG recommends that the Information Management
        Division ensure all new employees receive security awareness training before authorizing
        access to the network, as required by National Institute of Standards and Technology
        Special Publication 800-53, Revision 3.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that
        IMD requires all new employees to complete security awareness training within 5 days of
        arrival and prior to obtaining network access.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that all
        new employees have been required to complete security awareness training within 5 days
        of their arrival and prior to obtaining network access.

(U) Finding J. Remote Access Management

        (SBU) In FY 2011 and FY 2012, OIG reported that IBWC did not have an approved
access control policy and effective remote access controls in place. Remote access occurs when
a user (or a process acting on behalf of a user) gains access to an organizational information
system by communicating through an external network. In FY 2013, OIG observed the
following weaknesses for remote access management.

         (SBU) IBWC had not finalized and implemented an access control policy, a precursor to
having effective remote access management. NIST SP 800-53, Revision 3, 44 states that an
“organization develops, disseminates, and reviews” a formal documented access control policy
to facilitate the implementation of access controls. The Commissioner had not approved
IBWC’s Access Control Policy, which contained a section on remote access, because the local
employee union was still reviewing the policy.

        (SBU) IBWC did not require unique identification and authentication of users when
logging on to IBWC’s Virtual Private Network (VPN). NIST SP 800-53, Revision 3, 45 states,
“The information system uniquely identifies and authenticates organizational users (or processes
acting on behalf of organizational users).” [Redacted] (b) (5)

43
   (U) NIST SP 800-53, rev. 3, “AT-3 Security Training.”
44
   (U) NIST SP 800-53, rev. 3, “AC-1 Access Control Policy and Procedures.”
45
   (U) NIST SP 800-53, rev. 3, “IA-2 Identification and Authentication.”
                                             18
                                 SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5)




           (SBU) None of the 55 IBWC remote access/VPN users had completed a telework
    agreement. The IBWC Telework Directive, dated April 24, 2012, states, “Every request for a
    telework arrangement must be requested using the Telework Agreement Application, IBWC
    Form 350 and routed through the employee's chain of command and to approving authority. All
    approved telework agreements are to be forwarded through the Human Resources Office for
    review and concurrence.” IMD had not implemented its telework directive to require all
    personnel with remote access complete a telework agreement because it did not prioritize limited
    resources to produce telework agreements.

             (SBU) Without taking measures to implement controls for remote access, unauthorized
    activities can occur without timely detection, which could affect the confidentiality, integrity,
    and availability of IBWC data. Inadequate remote access controls increases the risk of
    compromised accounts performing unauthorized activities on IBWC’s information systems.

               (SBU) Recommendation 15. OIG recommends that the Information Management
               Division finalize and implement its access control policy, which includes remote access,
               as required by National Institute of Standards and Technology Special Publication 800-
               53, Revision 3.

               (SBU) Management Response: IBWC agreed with the recommendation, stating that it
               had finalized and implemented its access control policy.

               (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
               can be closed when OIG reviews and accepts documentation or evidence showing that the
               IBWC access control policy has been updated and finalized to include remote access
               requirements.
    [Redacted] (b) (5)




    46
         (U) OMB M-06-16, Protection of Agency Sensitive Information, June 2006.

                                                    19
                                        SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED
     [Redacted] (b) (5)




           (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and accepts documentation or evidence [Redacted]
                                                                                  (b) (5)


           identification of users.

           (SBU) Recommendation 17. OIG recommends that the International Boundary and
           Water Commission (IBWC) ensure all employees that require remote access capabilities
           for telework complete telework agreements and obtain appropriate approval, as required
           by IBWC’s Telework Directive.

           (SBU) Management Response: IBWC agreed with the recommendation, stating that the
           Telework Directive was being updated to include and document mobile workforce
           requirements. IBWC further stated that telework agreements were being completed by
           existing mobile workforce employees and should be in place by the end of 2013.

           (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and accepts documentation or evidence showing that
           IBWC has updated its Telework Directive to include mobile workforce requirements and
           that IBWC’s documented telework agreements are in place for existing mobile personnel
           by the end of 2013.

(U) Finding K. Identity and Access Management
        (SBU) OIG first reported in FY 2012 that IBWC did not have effective identity and
access management for its information systems. In FY 2013, OIG found that IBWC employees
did not utilize their Personal Identity Verification (PIV) cards to satisfy multifactor
authentication requirements. PIV cards are identification cards that the Government issues to
employees and contractors to allow authorized users physical and logical access. PIV cards are
not issued until the authorizing agency has determined sound criteria for verifying an employee’s
identity. The full implementation of PIV cards would help IBWC meet two of three multifactor
authentication requirements because an individual must “have” a physical PIV card and must
“know” the card’s Personal Identification Number (PIN) in order to gain physical and logical
access.

        (SBU) Although OIG found that IBWC had begun to implement the use of PIV cards, not
all employees were utilizing their PIV cards. [Redacted] (b) (5)
                                                                          NIST SP 800-53,
Revision 3, states that privileged and non-privileged accounts use multifactor authentication to
access information systems. According to the ISSM, IBWC had not procured PIV card readers

47
     (U) NIST SP 800-53, rev. 3, “IA-2 Identification and Authentication.”
                                                 20
                                     SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

for all employees, the network client software had prevented PIV process implementation, and in
some cases, employees had forgotten their PINs, which prevented IBWC personnel from using
their PIV cards to logically access the system. Without multifactor authentication, compromised
users’ identities could gain unauthorized access to sensitive information, resulting in data
manipulation.

        (SBU) Recommendation 18. OIG recommends that the International Boundary and
        Water Commission identify and implement a multifactor authentication solution, to
        include a process for resetting employee Personal Identification Numbers, for logical
        access to information systems, as required by National Institute of Standards and
        Technology Special Publication 800-53, Revision 3.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that a
        two-factor authentication solution has been implemented and that the Personnel Security
        Policy was being updated to include procedures for resetting employee PIN for logical
        access to information systems.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that a
        two-factor authentication solution has been implemented and that procedures have been
        established for resetting employees PINs for logical access to information systems.

(U) Finding L. Contractor Systems

        (SBU) In FY 2011 and FY 2012, OIG reported that IBWC had not implemented an
effective oversight program for its contractor system. In FY 2013, OIG found that IBWC had
not implemented a policy for oversight of its contractor-operated system. In addition, IBWC’s
contractor-operated system in San Diego was not compliant with contract terms and FISMA
requirements. Finally, three contractors at SBIWTP had not obtained their PIV cards. OMB
Memorandum M-12-20 48 states, “Agencies are fully responsible and accountable for ensuring all
[FISMA] and related policy requirements are implemented and reviewed and such must be
included in the terms of the contract.”

        (SBU) IBWC had not fully implemented an effective oversight program that included a
policy for oversight of its contractor-operated system. According to FISMA Section 3544, 49
agencies should implement policies and procedures to reduce risks for systems operated by the
agency or a contractor. In addition, OIG found that the contractors lacked compliance with
FISMA and the contract that IBWC produced for the operation of its SCADA system in San
Diego. [Redacted] (b) (5)
                                                                          . In addition, the
contractors purchased equipment without the review and approval from IMD. The Amendment

48
   (U) OMB M-12-20, FY 2012 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, Oct. 2, 2012.
49
   (U) FISMA, Title III-Information Security, sec. 3544.
                                             21
                                 SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

of Solicitation/Modification of Contract M027 between the IBWC and Veolia Water West
Operating Services, dated April 24, 2012, states that the contractor shall achieve required
compliance with FISMA for both the Supervisory Control and Data Acquisition network and the
Veolia network at the SBIWTP. The contract modification also states, “prior to purchase all
future IT software and hardware items for the SBIWTP shall be submitted to the IMD at IBWC
for review and approval.”

         (SBU) Further, three of 21 adjudicated contractors had not received their PIV cards at the
SBIWTP. Homeland Security Presidential Directive 12 50 states that agencies shall require
contractors to use identification in gaining physical and logical access to federally controlled
facilities and information systems.

         (SBU) An effective contractor oversight program did not exist because the appointment
letter for the contracting officer’s representative (COR) had not addressed FISMA compliance
and oversight of the SBIWTP information system. The COR believed that IMD was responsible
for oversight of the IT assets. Ultimately, there was confusion on the COR responsibility to
ensure FISMA compliance as the appointment letter 51 states that the COR will “[m]onitor the
contractor's performance in accordance with the Government’s Quality Assurance Surveillance
Plan, notify the contractor of deficiencies observed during surveillance and direct appropriate
action to effect correction.”

       (SBU) Without proper contractor oversight, IBWC has minimal assurance that contractor
personnel and operations are compliant with the contract, FISMA, and OMB requirements. In
addition, there is an increased risk that data collected, processed, and maintained is exposed to
unauthorized access, use, disclosure, disruption, modification, or destruction. Finally, IBWC
could pay for unnecessary contractor services and products.

        (SBU) Recommendation 19. OIG recommends that the International Boundary and
        Water Commission develop and implement a program to include policy for information
        security oversight of contractors, as required by the Federal Information Security
        Management Act Title III, Section 3544.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that
        policy was being developed for information security oversight of contractors.

        (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts documentation or evidence showing that
        policy has been developed for information security oversight of contractors.

        (SBU) Recommendation 20. OIG recommends that the International Boundary and
        Water Commission ensure that its Information Management Division is responsible for
        the oversight of information technology assets purchased and maintained by the
50
   (U) Homeland Security Presidential Directive 12, Policy for a Common Identification Standard for Federal
Employees and Contractors, Aug. 27, 2004.
51
    (U) A COR was appointed by the contracting officer on Sept. 30, 2010.
                                              22
                                  SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

contractor in support of operations at the South Bay International Wastewater Treatment
Plant, as required by the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53, Revision 3, and NIST SP 800-82.

(SBU) Management Response: IBWC agreed with the recommendation, stating that it
had issued a contract modification to notify the contractor of IBWC’s oversight
requirements.

(U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and accepts documentation or evidence showing that
IBWC has issued a contract modification to notify the contractor of IBWC’s oversight
requirements.

(SBU) Recommendation 21. OIG recommends that the International Boundary and
Water Commission review and update the appointment letter of the existing contracting
officer’s representative at South Bay International Wastewater Treatment Plant to include
responsibilities for implementing Federal Information Security Management Act
(FISMA) compliance for information system assets or appoint another individual the
duties for overseeing the FISMA compliance for information system assets.

(SBU) Management Response: IBWC agreed with the recommendation, stating that the
appointment letter of the existing COR at SBIWTP was being amended to include
additional responsibilities related to FISMA compliance. IBWC further stated that an
appointment letter was also issued to assign the ISSM full responsibility over FISMA
compliance.

(U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and accepts documentation or evidence showing that
the appointment letter of the existing COR at SBIWTP is amended to include additional
responsibilities related to FISMA compliance and that an appointment letter has been
issued to assign the ISSM full responsibility over FISMA compliance.

(SBU) Recommendation 22. OIG recommends that the International Boundary and
Water Commission (IBWC) ensure its Information Management Division reviews and
approves software prior to installation on IBWC assets, as required by The Amendment
of Solicitation/Modification of Contract M027.

(SBU) Management Response: IBWC agreed with the recommendation, stating that the
contractor is required to notify IMD of all planned IT purchases and that IMD will review
all purchase requests as required.

(U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and accepts documentation or evidence showing that
contractors have notified IMD of all IT purchases and that IMD has reviewed and
approved the use of such software prior to its purchase and installation.
                                 23
                     SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


(U) Finding M. Personnel Security
        (SBU) In FY 2011 and FY 2012, OIG reported that IBWC had not properly performed
background screening for employees and contractors prior to granting them access to information
systems and physical assets of both IBWC and the Department. IBWC had employees that were
OpenNet users that worked in a variety of functions in support of IBWC operations such as
budget, acquisitions, and finance. IBWC employees often need OpenNet accounts to gain access
to the Global Financial Management System and Integrated Logistics Management System.
Further, the onsite IMD system administrator was responsible for submitting account requests
and termination information to the Department. NIST SP 800-12 52 states that “background
screening helps determine whether a particular individual is suitable for a given position.”
IBWC made progress in addressing previously identified deficiencies regarding suitability
screenings for some employees and contractors, particularly background screening for all
employees designated as high-risk positions within the IMD. However, OIG identified the
following deficiencies in FY 2013.

         (SBU) OIG identified 35 of 69 53 IBWC employees, designated as requiring an
investigation higher than the standard National Agency Check and Inquiries. OIG found that
these 35 employees had not had their investigations upgraded to meet the requirements in the
IBWC Personnel Security and Suitability Directive. Specifically, within those 35 employees,
OIG identified 13 of 14 Area Operation Managers or Assistant Area Operation Managers that did
not have a Background Investigation performed. Area Operations Managers are located at each
of the IBWC field operations and at times may be required to perform IT duties. In addition, two
attorneys within the IBWC Office of General Counsel did not have the required single scope
background investigation. IBWC Personnel Security and Suitability Directive requires, High
Risk positions must have a Background Investigation performed. In addition, the directive
states, "Investigations for Critical-Sensitive, Special-Sensitive, Moderate and High Risk
positions, must be conducted pre-placement, unless a waiver is authorized." Background
investigations did not occur because IBWC position descriptions did not properly incorporate the
risk designation appropriate for the position, nor did the position descriptions specify the
requirement to maintain an appropriate clearance level or state that the position required a
background investigation. In addition, the IBWC Office of General Counsel advised the
suspension of background screenings until the upgraded position descriptions are completed to
reflect these requirements.

       (SBU) OIG identified 36 of 47 54 IBWC OpenNet users who were not in compliance with
the memorandum that the Bureau of Diplomatic Security, Security Infrastructure, Computer
Security, sent to the Bureau of Resource Management, Deputy Chief Financial Officer, Global
Financial Management System, dated August 2012, regarding OpenNet extensions at IBWC.
The August 2012 memorandum regarding “Annual Renewal of the OpenNet Extension at
USIBWC Headquarters in El Paso, Texas,” states the following:

52
   (U) NIST SP 800-12, An Introduction to Computer Security: The NIST Handbook, sec. 10.1.3, Oct. 1995.
53
   (U) OIG identified a total population of 69 IBWC employees that were designated as high-risk positions.
54
   (U) OIG identified a total population of 47 OpenNet users working at IBWC.
                                              24
                                  SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED



           (U) All [U.S. Section ] IBWC personnel that have unescorted physical and/or
           logical access to OpenNet must have, at a minimum, a Moderate Risk Public
           Trust certification (MRPT) on file with Diplomatic Security/Security
           Infrastructure/Office of Personnel Security and Suitability (DS/SI/PSS).
           USIBWC personnel security clearances must be passed to DS/SI/PSS and must be
           entered into the DS/SI/PSS database before granting access.

        (SBU) IBWC OpenNet users did not comply with the memorandum because the Bureau
of Diplomatic Security had not verified completion of required IBWC background screenings
prior to granting IBWC employees’ access to OpenNet. Further, the Bureau of Resource
Management did not ensure compliance with the requirements of the August 2012 memorandum
from Diplomatic Security/Security Infrastructure/Computer Security concerning the “Annual
Renewal of the OpenNet Extension at USIBWC Headquarters in El Paso, Texas.” Finally,
according to IBWC management, the Bureau of Resource Management had not provided a copy
of the Memorandum to IBWC to inform them of OpenNet extension compliance requirements.

       (SBU) OIG found that one of 22 55 contractors at the SBIWTP had not completed the
adjudication process to determine suitability, even though OIG had identified this deficiency in
FY 2012. IBWC’s Personnel Security and Suitability Directive states that the COR’s
responsibilities include “[e]nsuring compliance with all investigation and reinvestigation
requirements for contractor staff.” The contractor had not completed the process because the
COR did not perform duties as required by the IBWC Personnel Security and Suitability
Directive.

       (SBU) Without full background investigations for employees, followed by adjudication
and subsequent clearance, there is increased risk that individuals could gain inappropriate access
to IBWC IT and physical assets. This security weakness could also affect the Department
because IBWC employees would be granted access to OpenNet, a Department IT asset, without
appropriate clearance levels.

           (SBU) Recommendation 23. OIG recommends that the International Boundary and
           Water Commission update position descriptions that require background screenings,
           incorporate appropriate risk designations with the position, and specify the requirement to
           obtain and maintain the appropriate security clearance.

           (SBU) Management Response: IBWC agreed with the recommendation, stating that it
           had updated position descriptions for all personnel who require background screenings to
           include appropriate risk designations and security clearance requirements.

           (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and accepts documentation or evidence showing that


55
     (U) OIG identified a total population of 22 contractors working at the SBIWTP.
                                                 25
                                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

IBWC has updated position descriptions to specify whether a background screening is
required and to include appropriate risk designations.

(SBU) Recommendation 24. OIG recommends that the International Boundary and
Water Commission (IBWC) finalize suitability background screenings for both
employees and contractors, to include formal adjudication and clearance, as required by
IBWC’s Personnel Security and Suitability Directive.

(SBU) Management Response: IBWC agreed with the recommendation, stating that it
had finalized background screenings for all employees. IBWC further stated that formal
adjudication and clearance had been accomplished for approximately half of its personnel
and that the remaining personnel were awaiting results from OPM.

(U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and accepts documentation or evidence showing that
IBWC has completed and adjudicated background screening for all employees and
contractors.

(SBU) Recommendation 25. OIG recommends that the International Boundary and
Water Commission (IBWC), in coordination with the Bureau of Diplomatic Security,
Security Infrastructure, Computer Security, and the Bureau of Resource Management,
Deputy Chief Financial Officer, Global Financial Management System, suspend IBWC
employee access to OpenNet until employee background screenings are completed and
adjudicated.

(SBU) Management Response: IBWC agreed with the recommendation, stating that its
personnel security policy was being updated to incorporate the requirement to suspend
IBWC employee access to OpenNet until required background screenings have been
completed and adjudicated. IBWC further stated that notification of suspension will be
issued to all applicable bureaus as necessary.

(U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and accepts documentation or evidence showing that
policy has been developed and implemented to ensure that IBWC employee access to
OpenNet is suspended until required background screening has been completed and
adjudicated.

(SBU) Recommendation 26. OIG recommends that the International Boundary and
Water Commission (IBWC), Information Management Division, provide annual
certification to the Department of State Bureau of Resource Management indicating that
all IBWC OpenNet users fully comply with Department of State requirements concerning
OpenNet access.

(SBU) Management Response: IBWC agreed with the recommendation, stating that it
had discussed with the Department the development of a process to provide the required
                                 26
                     SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

           annual certification indicating that all IBWC OpenNet users fully comply with the
           Department’s OpenNet access requirements.

           (U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and accepts documentation or evidence showing that a
           process has been developed to verify that all IBWC OpenNet users fully comply with the
           Department’s OpenNet access requirements.

 (U) Finding N. System Inventory

        (SBU) In FY 2011 and FY 2012, OIG reported that IBWC did not have an accurate
information system component inventory. FISMA requires the heads of each agency to develop
and maintain an inventory of major information systems operated by or under the agency’s
control and to identify information systems in an inventory. In addition, to achieve effective
property accountability, there may be information such as hardware inventory specifications and
information systems/component owner that is necessary to record.

       (SBU) In FY 2013, OIG found that IBWC did not have an accurate information system
component inventory that reflected its current information system assets. Although IBWC had
improved its inventory tracking at the IBWC Headquarters in El Paso, OIG identified the
following inventory issues at the field sites.

         (SBU) The SBIWTP information system component inventory was not complete.
Specifically, OIG found instances where items on the inventory list could not be physically
located and items that were physically present were not recorded on the inventory list. In
addition, the documented data server inventory tag number did not match the actual data server
in the San Diego field office server room. Further, the Nogales SCADA system inventory was
not accurate to reflect current assets. Finally, the information system inventory listing,
maintained by IMD, did not include the virtualization equipment for the continuity of operations
site in Las Cruces. NIST SP 800-53, Revision 3,56 states that organizations should “develop,
document, and maintain an inventory for information system components that accurately reflects
the current information system.” IBWC’s decentralized operations complicated the recording of
IT assets because multiple personnel had a role in accounting for inventory. IMD centrally
distributed IT assets to the various field offices; however, different operational elements
recorded the inventory resulting in the inaccuracy of the perceived and actual inventory.

       (SBU) Without a full system inventory of IT assets, including the SCADA systems,
IBWC does not have a full accounting and reporting of all IT assets resulting in the inability to
mitigate security risks for its assets. In addition, IBWC may not be able to determine if assets
were properly sanitized and disposed of and if inventory was stolen or inappropriately purchased.

           (SBU) Recommendation 27. OIG recommends that the International Boundary and
           Water Commission develop and implement a process for conducting and maintaining

56
     (U) NIST SP 800-53, rev. 3, “CM-8 Information System Component Inventory.”
                                               27
                                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

information system component inventory, to include all information system components
concerning the Supervisory Control and Data Acquisition systems, as required by
National Institute of Standards and Technology Special Publication 800-53, Revision 3,
and the Federal Information Security Management Act of 2002.

(SBU) Management Response: IBWC agreed with the recommendation, stating that
inventory requirements have been incorporated into both contracts for SBIWTP systems.
IBWC further stated that existing system inventory policies to conduct and maintain
accountability for GSS will be implemented for all remaining systems by March 2014.

(U) OIG Analysis: OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and accepts documentation or evidence showing that a
process has been implemented for conducting and maintaining information component
inventory.




                                 28
                     SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                              (U) List of Recommendations
(SBU) Recommendation 1. OIG recommends that the International Boundary and Water
Commission update and finalize its risk management framework to include all three tiers of
managing risk, as required by National Institute of Standards and Technology (NIST) Special
Publications (SP) 800-37, Revision 1, and the four risk management steps, as required by NIST
SP 800-39.

(SBU) Recommendation 2. OIG recommends that the International Boundary and Water
Commission (IBWC) determine the ownership and classification of the South Bay International
Wastewater Treatment Plant Admin Network and the Geographic Information System in
accordance with Federal Information Processing Standards 199 and update the IBWC Inventory
Guide.

(SBU) Recommendation 3. OIG recommends that the International Boundary and Water
Commission (IBWC) develop security authorization packages for all IBWC information systems
based on the determination of ownership and classification, as required by National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

(SBU) Recommendation 4. OIG recommends that the Information Management Division
establish a continuous monitoring strategy and implement a continuous monitoring program for
all International Boundary and Water Commission information systems, as required by National
Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, Revision 3, and
as outlined in NIST SP 800-137.

(SBU) Recommendation 5. OIG recommends that the International Boundary and Water
Commission (IBWC) develop and implement policies and procedures for physical and
environmental protection controls for IBWC assets to include information systems at
headquarters and at each field office, in accordance with National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-53, Revision 3, and NIST SP 800-82.

(SBU) Recommendation 6. OIG recommends that the International Boundary and Water
Commission develop and implement [Redacted] (b) (5)
                                              as required by National Institute of Standards
and Technology Special Publication 800-53, Revision 3.

(SBU) Recommendation 7. OIG recommends that the Information Management Division
update and implement its Plan of Action and Milestone Directive to include all information
systems, as required by National Institute of Standards and Technology Special Publication 800-
53, Revision 3.

(SBU) Recommendation 8. OIG recommends that the Information Management Division
update the Plan of Action and Milestone database [Redacted] (b) (5)


                                         29
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

     [Redacted]   as stated in the International Boundary and Water Commission Plan of Action and
     (b) (5)
     Milestone Directive for all information systems.

     (SBU) Recommendation 9. OIG recommends that the International Boundary and Water
     Commission complete a business case/Exhibit 300/Exhibit 53 to obtain the resources required to
     protect its information systems, as required by National Institute of Standards and Technology
     Special Publication 800-65.

     (SBU) Recommendation 10. OIG recommends that the International Boundary and Water
     Commission prioritize resources to complete contingency planning documents for all
     information systems, as required by National Institute of Standards and Technology (NIST)
     Special Publication (SP) 800-53, Revision 3, and NIST SP 800-34, Revision 1.

     (SBU) Recommendation 11. OIG recommends that the International Boundary and Water
     Commission update, approve, and implement an incident response and reporting policy, to
     include the correlation of incidents for all information systems, as required by National Institute
     of Standards and Technology (NIST) Special Publication (SP) 800-53, Revision 3, and NIST SP
     800-61, Revision 2.

     (SBU) Recommendation 12. OIG recommends that the International Boundary and Water
     Commission (IBWC) implement testing of all changes to its information systems, as required by
     the IBWC Configuration Management Directive and National Institute of Standards and
     Technology Special Publication 800-53, Revision 3.

     (SBU) Recommendation 13. OIG recommends that the International Boundary and Water
     Commission update and implement its configuration management policy to include change
     management of Supervisory Control and Data Acquisition systems as required by National
     Institute of Standards and Technology Special Publication 800-82.

     (SBU) Recommendation 14. OIG recommends that the Information Management Division
     ensure all new employees receive security awareness training before authorizing access to the
     network, as required by National Institute of Standards and Technology Special Publication 800-
     53, Revision 3.

     (SBU) Recommendation 15. OIG recommends that the Information Management Division
     finalize and implement its access control policy, which includes remote access, as required by
     National Institute of Standards and Technology Special Publication 800-53, Revision 3.
[Redacted] (b) (5)




     (SBU) Recommendation 17. OIG recommends that the International Boundary and Water
     Commission (IBWC) ensure all employees that require remote access capabilities for telework
                                               30
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

complete telework agreements and obtain appropriate approval, as required by IBWC’s
Telework Directive.

(SBU) Recommendation 18. OIG recommends that the International Boundary and Water
Commission identify and implement a multifactor authentication solution, to include a process
for resetting employee Personal Identification Numbers, for logical access to information
systems, as required by National Institute of Standards and Technology Special Publication
800-53, Revision 3.

(SBU) Recommendation 19. OIG recommends that the International Boundary and Water
Commission develop and implement a program to include policy for information security
oversight of contractors, as required by the Federal Information Security Management Act Title
III, Section 3544.

(SBU) Recommendation 20. OIG recommends that the International Boundary and Water
Commission ensure that its Information Management Division is responsible for the oversight of
information technology assets purchased and maintained by the contractor in support of
operations at the South Bay International Wastewater Treatment Plant, as required by the
National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
Revision 3, and NIST SP 800-82.

(SBU) Recommendation 21. OIG recommends that the International Boundary and Water
Commission review and update the appointment letter of the existing contracting officer’s
representative at South Bay International Wastewater Treatment Plant to include responsibilities
for implementing Federal Information Security Management Act (FISMA) compliance for
information system assets or appoint another individual the duties for overseeing the FISMA
compliance for information system assets.

(SBU) Recommendation 22. OIG recommends that the International Boundary and Water
Commission (IBWC) ensure its Information Management Division reviews and approves
software prior to installation on IBWC assets, as required by The Amendment of
Solicitation/Modification of Contract M027.

(SBU) Recommendation 23. OIG recommends that the International Boundary and Water
Commission update position descriptions that require background screenings, incorporate
appropriate risk designations with the position, and specify the requirement to obtain and
maintain the appropriate security clearance.

(SBU) Recommendation 24. OIG recommends that the International Boundary and Water
Commission (IBWC) finalize suitability background screenings for both employees and
contractors, to include formal adjudication and clearance, as required by IBWC’s Personnel
Security and Suitability Directive.

(SBU) Recommendation 25. OIG recommends that the International Boundary and Water
Commission (IBWC), in coordination with the Bureau of Diplomatic Security, Security
                                         31
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Infrastructure, Computer Security, and the Bureau of Resource Management, Deputy Chief
Financial Officer, Global Financial Management System, suspend IBWC employee access to
OpenNet until employee background screenings are completed and adjudicated.

(SBU) Recommendation 26. OIG recommends that the International Boundary and Water
Commission (IBWC), Information Management Division, provide annual certification to the
Department of State Bureau of Resource Management indicating that all IBWC OpenNet users
fully comply with Department of State requirements concerning OpenNet access.

(SBU) Recommendation 27. OIG recommends that the International Boundary and Water
Commission develop and implement a process for conducting and maintaining information
system component inventory, to include all information system components concerning the
Supervisory Control and Data Acquisition systems, as required by National Institute of Standards
and Technology Special Publication 800-53, Revision 3, and the Federal Information Security
Management Act of 2002.




                                         32
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                                                                          (U) Appendix A

                                   (U) Scope and Methodology
        (U) The Office of Inspector General (OIG), Office of Audits, performed this audit from
February 2013 through July 2013 at the International Boundary and Water Commission (IBWC)
headquarters in El Paso, TX; the continuity of operations site in Las Cruces, NM; the South Bay
International Wastewater Treatment Plant and field office in San Diego, CA; and the Nogales
International Wastewater Treatment Plant in Nogales, AZ.

       (U) OIG interviewed IBWC senior management, employees, and contractors to evaluate
managerial effectiveness and operational controls in accordance with National Institute of
Standards and Technology, IBWC, and the Office of Management and Budget guidance. OIG
observed daily operations, obtained evidence to support OIG conclusions and recommendations,
and collected written documents to supplement observations and interviews.

        (U) The Federal Information Security Management Act of 2002 (FISMA) requires each
Federal agency to develop, document, and implement an agency-wide program to provide
information security for the information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or another source.
To ensure the adequacy and effectiveness of these controls, FISMA requires the agency’s
inspector general or an independent external auditor to perform annual reviews of the
information security program and to report those results to the Office of Management and
Budget (OMB) and the Department of Homeland Security (DHS). ∗ DHS uses this data to assist
in oversight responsibilities and to prepare its annual report to Congress regarding agency
compliance with FISMA.

         (U) OIG conducted this audit in accordance with generally accepted government
auditing standards (GAGAS). GAGAS requires an audit to be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for its findings and conclusions
based on the audit objective. OIG believes that the evidence obtained provides a reasonable
basis for its findings and conclusions based on the audit objective.

        (U) OIG discussed its preliminary findings with IBWC officials on March 14, 2013. OIG
also provided IBWC with Notice of Findings and Recommendations, which were discussed in
detail at an exit conference held with IBWC officials on July 25, 2013.




∗
 (U) OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office
of the President and the Department of Homeland Security (DHS), July 6, 2010.

                                             33
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


(U)Work Related to Internal Controls

        (U) OIG assessed the adequacy of internal controls by performing manual assessments of
internal controls related to the areas audited through which OIG gained an understanding of the
effectiveness of IBWC’s FISMA mandated information security program. OIG identified and
discussed exceptions with IBWC officials to understand the reasons behind internal control
challenges. Through conversations with IBWC officials, OIG gained an understanding of the
policies and procedures related to IBWC’s information security program. OIG learned how
IBWC oversees the development of an information security program to protect information and
information systems, to report timely results regarding the security posture of information and
information systems, and to implement corrective measures to address previously identified
FISMA findings and recommendations. OIG’s conclusions on the internal control deficiencies
identified during this audit are detailed in the “Audit Results” section of this report.

(U) Use of Computer-Processed Data

         (U) To assess the reliability of computer-processed data, the OIG reviewed
documentation related to background screening of employees. OIG traced the background
screening documentation to position descriptions to determine what individuals required
additional background screening to perform their daily duties. OIG also used IBWC’s inventory
listing retrieved from the Integrated Logistics Management System to determine if the
documented inventory matched the actual inventory at each site. OIG determined that the data
were sufficiently reliable to support the conclusions and recommendations presented in this
report.




                                        34
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                                                                            (U) Appendix B

                        (U) Office of Inspector General
          FY 2012 Federal Information Security Management Act Report
                          Statuses of Recommendations
        (U) The FY 2012 Federal Information Security Management Act (FISMA) audit was
conducted by the Department of State, Office of Inspector General (OIG), Office of Audits, and
contained 31 recommendations. ∗ The audit team reviewed remedial actions implemented by
U.S. Section International Boundary and Water Commission (IBWC) management to respond to
the findings identified in the OIG FY 2012 FISMA report. Below is the status of each
recommendation:

(U) Recommendation 1. OIG recommends that the Chief Information Officer conduct an
inventory to identify all information technology assets, including Supervisory Control and Data
Acquisition systems for International Boundary and Water Commission.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued as
Recommendation 27 (Finding N) in the FY 2013 report.

(U) Recommendation 2. OIG recommends that the Chief Information Officer conduct an
annual inventory of information technology assets and update the full system inventory when
changes are made to those information systems operated by or under the control of the
International Boundary and Water Commission (IBWC) or by third-party contractors or agencies
on behalf of IBWC, as required by the Federal Information Security Management Act.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued as
Recommendation 27 (Finding N) in the FY 2013 report.

(U) Recommendation 3. OIG recommends that the Chief Information Officer develop a risk
management strategy, which includes the information technology strategic plan and the
enterprise architecture at the organizational level, for assessing, addressing, and monitoring
information security risks, as required by National Institute of Standards and Technology Special
Publication 800-37, Revision 1.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 1 (Finding A) in the FY 2013 report.

(U) Recommendation 4. OIG recommends that the Chief Information Officer complete the
security documents and the testing of International Boundary and Water Commission
information technology assets.


∗
 (U) Audit of International Boundary and Water Commission, United States and Mexico, U.S. Section, Information
Security Program (AUD/IT-13-15, Nov. 2012).
                                             35
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 3 (Finding A) in the FY 2013 report.

(SBU) Recommendation 5. OIG recommends that the Chief Information Officer develop the
security assessment and authorization packages for the Geographic Information System and
Supervisory Control and Data Acquisition systems and update the security assessment and
authorization package for the General Support System, as required by National Institute of
Standards and Technology Special Publication (NIST SP) 800-53, Revision 3 and NIST SP 800-
82.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 3 (Finding A) in the FY 2013 report.

(U) Recommendation 6. OIG recommends that the Chief Information Officer improve existing
procedures to ensure security assessment and authorization packages, system security plans, and
security assessment reports are updated, as required by National Institute of Standards and
Technology Special Publication (NIST SP) 800-37, Revision 1 and NIST SP 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 3 (Finding A) in the FY 2013 report.

(U) Recommendation 7. OIG recommends that the Chief Information Officer ensure that
annual security assessments of a subset of a system’s security controls are conducted, as required
by National Institute of Standards and Technology Special Publication 800-37, Revision 1.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 3 (Finding A) in the FY 2013 report.

(U) Recommendation 8. OIG recommends the Chief Information Officer develop and
implement configuration management and testing procedures including, but not limited to, patch
management and periodic assessments of compliance with the implemented procedures, as
required by National Institute of Standards and Technology (NIST) Special Publication (SP)
800-53, Revision 3, and NIST SP 800-40, Version 2.0.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendations 12 and 13 (Finding H) in the FY 2013 report.

(U) Recommendation 9. OIG recommends that the Chief Information Officer develop and
implement procedures for the oversight of all systems and hardware including, but not limited to,
patch management and periodic assessments of compliance with implemented procedures that
are part of the International Boundary and Water Commission operations, as required by
National Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 13 (Finding H) in the FY 2013 report.
                                         36
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(U) Recommendation 10. OIG recommends the Chief Information Officer incorporate the
updated incident report template into the incident response and reporting procedures and
periodically assess compliance with the procedures, as required by National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 11 (Finding G) in the FY 2013 report.

(U) Recommendation 11. OIG recommends that the Chief Information Officer ensure the
security awareness training policy requiring all International Boundary and Water Commission
personnel to attend initial security awareness training is finalized and then ensure that the
personnel take the training before they are provided access to information technology systems, as
required by National Institute of Standards and Technology Special Publication 800-53, Revision
3, and Office of Management and Budget Circular No. A-130.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 14 (Finding I) in the FY 2013 report.

(U) Recommendation 12. OIG recommends that the Chief Information Officer ensure all
International Boundary and Water Commission personnel attend security awareness refresher
training and suspend access to information technology systems and assets when personnel fail to
successfully complete the training, as required by National Institute of Standards and
Technology Special Publication SP 800-53, Revision 3, and Office of Management and Budget
Circular No. A-130.

(U) Status: Closed March 2013. IBWC provided evidence of security awareness training
completion for IBWC’s employees and contractors for 2012.

(U) Recommendation 13. OIG recommends that the Chief Information Officer ensure the
specialized security training requirement for International Boundary and Water Commission
personnel with significant security responsibilities is completed so that the personnel are able to
maintain their professional proficiency, as required by National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

(U) Status: Closed March 2013. IBWC provided evidence of whom they have identified as
having additional security responsibilities and provided evidence of their training completion for
2012.

(U) Recommendation 14. OIG recommends the Chief Information Officer fully implement a
Plan of Action and Milestones process to include vulnerabilities identified from all sources and
update milestone dates, as required by Office of Management and Budget Memorandum M-08-
21 and NIST Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 7 (Finding D) in the FY 2013 report.
                                          37
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

(U) Recommendation 15. OIG recommends that the Chief Information Officer finalize and
implement International Boundary and Water Commission remote access policy and procedure,
as required by National Institute of Standards and Technology Special Publication SP 800-53,
Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 15 (Finding J) in the FY 2013 report.

(SBU) Recommendation 16. OIG recommends that the Chief Information Officer implement
remote access controls that is enforced with two-factor authentication and encryption of data on
mobile devices, as required by the Office of Management and Budget Memorandum M-06-16.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 16 (Finding J) in the FY 2013 report.

(SBU) Recommendation 17. OIG recommends that the Chief Information Officer develop and
implement a wireless policy and procedures, as required by National Institute of Standards and
Technology Special Publication SP 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 15 (Finding J) in the FY 2013 report.

(U) Recommendation 18. OIG recommends that the Chief Information Officer update and
implement identification and authentication management procedures to include the e-
authentication procedures, as required by National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

(U) Status: Closed June 2013. IBWC provided evidence that the IBWC Access Control policy
had been finalized and that it included details on the use of Personal Identity Verification
cards.

(U) Recommendation 19. OIG recommends that the Chief Information Officer perform a risk
assessment identifying the risks to system security, as required by the Office of Management and
Budget Memorandum M-04-04.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 3 (Finding A) in the FY 2013 report.

(SBU) Recommendation 20. OIG recommends that the Chief Information Officer develop and
implement policies and procedures to perform continuous monitoring to include automated
routine vulnerability assessments for the General Support System, the Geographical Information
System, and the Supervisory Control and Data Acquisition systems. The results of such security
assessments should be reviewed, and Plans of Action and Milestones should be developed for the
improvement of the security controls of major systems, as required by National Institute of
Standards and Technology Special Publication 800-53, Revision 3.
                                         38
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 4 (Finding B) in the FY 2013 report.

(SBU) Recommendation 21. OIG recommends that the International Boundary and Water
Commission develop and implement contingency planning procedures and conduct testing for
operational effectiveness of all major systems, as required by National Institute of Standards and
Technology Special Publication 800-34, Revision 1.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 10 (Finding F) in the FY 2013 report.

(SBU) Recommendation 22. OIG recommends that the International Boundary and Water
Commission finalize the continuity of operations site and conduct testing for operational
effectiveness of all major systems, as required by National Institute of Standards and Technology
Special Publication 800-34, Revision 1.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 10 (Finding F) in the FY 2013 report.

(U) Recommendation 23. OIG recommends that the International Boundary and Water
Commission ensure that its Information Management Division is responsible for the oversight of
information technology assets purchased and maintained by the contractor in support of
operations at the wastewater treatment plant in San Diego, CA, as required by National Institute
of Standards and Technology Special Publications (SP) 800-53, Revision 3, and SP 800-82.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 20 (Finding L) in the FY 2013 report.

(U) Recommendation 24. OIG recommends that the International Boundary and Water
Commission (IBWC) ensure that its Information Management Division reviews and approves
software prior to installation on IBWC assets, as required by National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 22 (Finding L) in the FY 2013 report.

(U) Recommendation 25. OIG recommends that the Chief Information Officer ensure that all
information technology assets are accounted for, reported and tracked, and used in the
calculation and reporting of Exhibit 300/Exhibit 53’s to the Office of Management and Budget.
Additionally, OIG recommends that International Boundary and Water Commission incorporate
funding requirements in the information technology strategic plan, as required by National
Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 9 (Finding E) in the FY 2013 report.
                                         39
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

(U) Recommendation 26. OIG recommends that International Boundary and Water
Commission finalize its contractors’ suitability clearances, including formal clearance
adjudication, and issue badges, as required by Homeland Security Presidential Directive 12.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 24 (Finding M) in the FY 2013 report.

(U) Recommendation 27. OIG recommends that International Boundary and Water
Commission ensure that the adjudication process is completed for the information technology
employees undergoing background investigations.

(U) Status: Closed March 2013. IBWC has performed background investigations on all
employees within the Information Management Division to be in accordance with their high-risk
position designation as stated in the IBWC Personnel Security and Suitability Directive.

(U) Recommendation 28. OIG recommends that the International Boundary and Water
Commission develop and implement chain-of-custody procedures to control access to the
proximity access cards and remote gate devices along the international border.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 6 (Finding C) in the FY 2013 report.

(U) Recommendation 29. OIG recommends that the International Boundary and Water
Commission develop and implement physical access controls to restrict access to the Supervisory
Control and Data Acquisition control centers, Programmable Logic Controller, and file servers,
as required by National Institute of Standards and Technology Special Publication 800-82.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 5 (Finding C) in the FY 2013 report.

(U) Recommendation 30. OIG recommends that the International Boundary and Water
Commission restrict access to file servers at its San Diego, CA, wastewater treatment plant, the
field offices in Fort Hancock, TX, and its headquarters in El Paso, TX, and ensure the servers are
attached to the floor to prevent damage to equipment or harm to employees, as required by
National Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 5 (Finding C) in the FY 2013 report.

(U) Recommendation 31. OIG recommends that the International Boundary and Water
Commission determine the most cost-effective protective measures to prevent fire and damage to
file servers, as required by National Institute of Standards and Technology Special Publication
800-53, Revision 3.



                                         40
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

(U) Status: Closed from the FY 2012 FISMA report. This recommendation has been reissued
as Recommendation 5 (Finding C) in the FY 2013 report.




                                       41
                           SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED



                                                                                                    (U) Appendix C




       ~
      ~
                                INTERNATIONAL BOUNDARY AND WATER COMMISSION
                                          UNITED STATES AND MEXICO
          ~~-
O F FICE. OF THE COMMISSIONER
   U N ITED STAT FSSECTlON                        September 16, 20 13


           Mr. Harold W. Geisel
           United States Department of State
           Deputy Inspector General
           Office of Inspector General
           Washington, D. C. 20520

           Subject: Audit of the United States Section, International Boundary and Water Commission
           (IBWC) Information Security Program

           Dear Mr. Geisel:

           We appreciate the opportunity to provide responses to the FY 2013 audit findings and
           recommendations (attached) represented in your draft report of September 3, 2013 . We are
           committed to giving these our highest priority and we will continue to keep your office posted on
           our continued progress towards full implementation of all recommendations.

           Please advise if you have any questions or if we may be of any assistance.


                                                         Sincerely,



                                                  ~~'    Commissioner


           Attached: as stated




                                                42
                                    SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED




        United States Department of State
     and the Broadcasting Board of Governors
            Office of Inspector General

                 Office of Audits

 International Boundary and Water Commission,
United States and Mexico, U.S. Section, Information
                 Security Program

                  AUD-IT-13-XX
                   August2013




                         1




                    43
        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




U) Finding A. Risk Management

       (SBU) Recommendation 1. Agree: A risk management framework is being finalized.

       (SBU) Recommendation 2. Agree. Discussions with Veolia are ongoing where ownership
       of the Systems will be made clear. Reclassifications of the SBIWTP Veolia and GIS Systems
       in accordance with FIPS I 99 will be completed by the end of the calendar year.

       (SBU) Recommendation 3. Agree. The IBWC has issued a contract for a risk assessments
       of the South Bay International Wastewater Treatment Plant (SBIWTP) SCAD A, Admin and
       Nogales International Wastewater Treatment Plant SCAD A Systems. The Geographic
       Information System risk assessment is being finalized. The results of the risk assessments
       and reclassification of Systems will be used to develop authorization packages for all IBWC
       Systems.

(U) Finding B. Continuous Monitoring

        (SBU) Recommendation 4. Agree. A continuous monitoring solution is now in place to
perform vulnerability scanning and advanced risk and threat assessments; actions are under way to hire
personnel and issue a contract for continuous monitoring services. The IBWC will be accepting an
invitation to participate in the Department of Homeland Security's (DHS) Continuous Diagnostic and
Mitigation (CDM) Program, which will provide authorized vendors to perform these functions for federal
agencies.

(U) Finding C. Physical and Environmental Protection
       (SBU) Recommendation 5. Agree. The IBWC has developed and implemented a risk
       assessment policy and procedures, which incorporates the requirement for physical and
       environmental protections controls for IBWC assets. In addition, the Master Planning
       Division (MPD) of the IBWC will be conducting assessments of all facilities to include all
       information system (IT/server rooms) locations and ensure that physical and environmental
       protection controls exist or implemented in accordance with NIST SP 800-53, Rev 3 and
       NIST SP800-82. Designs for ongoing new admin building facilities already include all
       physical and environmental requirements
  [Redacted] (b) (5)




                                                  2




                                      44
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




(U) Finding D. Plan of Action and Milestones

     (SBU) Recommend ation 7. Agree. The Information Management Division has updated its
     PoAMs database, which now exclude the 174 entries that were not derived from a supported
     security assessment. Other updates are being made to the PoAMs database to include all
     elements identified during the OIG FISMA audit, and in accordance with NIST SP 800-53,
     Rev3.

     (SBU) Recommendation 8. Agree. The Information Management Division approaching
     completion of its update to the Plan of Action and Milestone database, [Redacted] (b)
                                                                            (5)


(U) Finding E. Security Capital Planning
     (U) Recommendation 9. Agree. The IBWC has inventoried all its IT assets and will
     continue to document all assets and maintain the inventory updated, along with associated
     costs. The IBWC will also continue to represent its needs in future budget requests to ensure
     required resources are available to protect its information systems. Development of Exhibit
     300 and 53 is required of all CFO agencies consistent with OMB Circular A-ll guidance,
     which is not the designation of the IBWC. OMB representatives have confirmed that the
     requirement is not applicable to small agencies.

(U) Finding F. Contingency Planning

      (SBU) Recommendation 10. Agree. The IBWC has begun its Business Impact Assessment
      for the GSS which will feed its Business Continuity Plan and Continuity of Operations
      documentation as required. Contingency planning documentation for all other systems are
      being planned and developed as required by SP-800-53 and NIST SP 800-34, Rev I

(U) Finding G. Incident Response a nd Reporting
      (SBU) Recommendation 11. Agree. The IBWC has finalized its Incident and Response
      Reporting directive, which is currently under review by the union.


(U) Finding H. Configuration Management

      (SBU) Recommendation 12. Agree. The IBWC has acquired the resources and hardware
      to implement a virtual testing environment to test all changes to its information systems as
                                                 3




                                    45
                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     required by the existing directive and NIST SP 800-53, Rev 3.
     (SBU) Recommendation 13. Agree. The IBWC is issuing a contract to conduct risk
     assessments of the two SCAD A systems, which includes development of configuration
     management policy.

(U) Finding I. Security Training
     (SBU) Recommendation 14. Ag1·ee. The IMD has effectively assured that all new
     employees complete the required security awareness training within 5 days of their arrival in
     order to obtain authorization to access the network. The established process is being followed
     in accordance with IBWC policy SD.I.6061-M-lll Security Awareness and Training.

(U) Finding J. Remote Access Management

     (SBU) Recommendation 15. Agree. The IBWC has finalized and implemented its access
     control policy.
[Redacted] (b) (5)




     (SBU) Recommendation 17. Agree. The Telework Directive is being updated to correctly
     include and document mobile workforce requirements. Telework agreements for existing
     mobile workforce employees are being completed and will be in place by the end of the
     calendar year.

(U) Finding K. Identity and Access Management

     (SBU) Recommendation 18. Agree. The ffiWC has implemented a two-factor
     authentication solution, to include a process for resetting employee Personal Identification
     Numbers, for logical access to information systems. The Personnel Security policy is
     being updated to incorporate this process.

(U) Finding L. Contractor Systems

      (SBU) Recommendation 19. Agree. Policy is being developed for information security
      oversight of contractors, as required by the Federal Information Security Management Act
      Title III, Section 3544.

      (SBU) Recommendation 20. Agree. The IBWC has issued a modification to the South Bay
                                                 4




                                    46
                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     International Wastewater Treatment Plant contractor, notifying the contractor of IBWC's
     management oversight requirements of information technology assets purchased and
     maintained by the contractor in support of operations. A copy of the modification was
     previously provided.

     (SBU) Recommendation 21. Agree. The appointment letter of the existing contracting
     officer's representative at South Bay International Wastewater Treatment Plant is being
     amended to include responsibilities. An appointment letter has also been issued to the ISSM
     designating him full responsibility over FISMA compliance oversight.

     (SBU) Recommendation 22. Agree. The contractor is required to notify the Information
     Management Division of all planned purchases of IT hardware and software. The IMD will
     review all requests as required by The Amendment of Solicitation/Modification of Contract
     M027.


(U) Finding M. Personnel Security
     (SBU) Recommendation 23. Agree. The IBWC has updated the position descriptions of all
     personnel that require background screenings, which incorporate appropriate risk designations
     with the position, and specify the requirement to obtain and maintain the appropriate security
     clearance. Copies of the amendments were provided to the OIG during a previous update.

     (SBU) Recommendation 24. Agree. The IBWC has finalized requests for suitability
     background screenings for I 00% of both employees and contractors, as required by its
     Personnel Security and Suitability Directive. Formal adjudication and clearance has been
     accomplished for approximately half with the second half pending receipt of results from
     OPM.

     (SBU) Recommendation 25. Agree. The IBWC is incorporating into its personnel
     security policy a process that requires the IBWC to suspend IBWC employee access to
     OpenNet until the required background are obtained. Notification will be issued to the
     Bureau of Diplomatic Security, Security Infrastructure, Computer Security, and the Bureau
     of Resource Management, Deputy Chief Financial Officer, Global Financial Management
     System to suspend accounts as necessary.

     (SBU) Recommendation 26. Agr ee. The IBWC is in discussions with the Department of
     State Bureau of Resource Management and will be developing a process to provide the
     required annual certification indicating that all IBWC OpenNet users fully comply with
     Department of State requirements concerning OpenNet access.




                                                5




                                    47
                        SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




(U) Finding N. System Inventory

     (SBU) Recommendation 27. Agree. The IBWC has incorporating the necessary inventory
     requirements into the contract for both SBIWTP systems. In addition, the existing system
     inventory policies for conducting and maintaining system component accountability for the
     GSS will be implemented for all remaining systems by March 2014.




                                               6




                                   48
                       SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


(U) Major Contributors to This Report

Jerry Rainwaters, Director
Division of Information Technology
Office of Audits

Jamie Horvath, Manager
Division of Information Technology
Office of Audits

Kenneth Bensman, Senior Auditor
Division of Information Technology
Office of Audits




                                       49
                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
